<html>
<title> - COMBATING TERRORISM: ASSESSING FEDERAL ASSISTANCE TO FIRST RESPONDERS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





 COMBATING TERRORISM: ASSESSING FEDERAL ASSISTANCE TO FIRST RESPONDERS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 15, 2003

                               __________

                           Serial No. 108-112

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

92-125              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
WILLIAM J. JANKLOW, South Dakota     CHRIS BELL, Texas
                                     JOHN F. TIERNEY, Massachusetts

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Advisor
                        Robert A. Briggs, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 15, 2003...............................     1
Statement of:
    Arenovski, Dan, associate director of security, Purdue PHARMA    54
    Bergstresser, Richard, first selectman, town of Greenwich, CT    45
    Bond, Richard, first selectman, New Canaan, CT...............    45
    Conte, John, captain, Stamford Fire Department...............    60
    Duff, Bob, Connecticut State Representative, Norwalk, CT.....    49
    Farrell, Diane, first selectwoman, town of Westport, CT......    46
    Hawreluk, David, advisor-director, Darien EMS................    60
    Larkin, Jim, Global Strategy Advisors........................    58
    Latessa, E. Michael, EMS director, city of Norwalk, CT.......    61
    Malloy, Dannel P., mayor, city of Stamford, CT; Ted Macklin, 
      Director, Exercise and Evaluation Division, Office for 
      Domestic Preparedness, U.S. Department of Homeland 
      Security; Daniel A. Craig, Regional Director, FEMA Region 
      I; Donald Petri, Department of Public Safety, Division of 
      Homeland Security, State of Connecticut, accompanied by 
      Charles C. Beck, Chief, Domestic Preparedness Division, 
      Office of Emergency Management, State of Connecticut; and 
      Christopher Bruhl, president and chief executive officer of 
      the SACIA..................................................     9
    McCormack, Ed, Stamford Health System........................    53
    McGrath, Robert J., fire chief, city of Stamford, CT.........    52
    Powers, Claudia Dolly, Connecticut State Representative......    48
    Wuennemann, Thomas, Captain, Stamford Police Department......    51
Letters, statements, etc., submitted for the record by:
    Bruhl, Christopher, president and chief executive officer of 
      the SACIA, prepared statement of...........................    36
    Craig, Daniel A., Regional Director, FEMA Region I, prepared 
      statement of...............................................    25
    Macklin, Ted, Director, Exercise and Evaluation Division, 
      Office for Domestic Preparedness, U.S. Department of 
      Homeland Security, prepared statement of...................    15
    Malloy, Dannel P., mayor, city of Stamford, CT, prepared 
      statement of...............................................    11
    Petri, Donald, Department of Public Safety, Division of 
      Homeland Security, State of Connecticut, prepared statement 
      of.........................................................    30
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3

 
 COMBATING TERRORISM: ASSESSING FEDERAL ASSISTANCE TO FIRST RESPONDERS

                              ----------                              


                       MONDAY, SEPTEMBER 15, 2003

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                      Stamford, CT.
    The subcommittee met, pursuant to notice, at 11:43 a.m., in 
the Davenport Ballroom, Holiday Inn Select, 700 Main Street, 
Stamford, CT, Hon. Christopher Shays (chairman of the 
subcommittee) presiding.
    Present: Representatives Shays, Turner, Maloney.
    Staff present: Lawrence Halloran, staff director and 
general counsel; R. Nicholas Palarino, senior policy analyst; 
Robert A. Briggs, clerk and professional staff member; 
Christopher Skaluba, Presidential management intern; and David 
Rapallo, minority counsel.
    Mr. Shays. A quorum being present the Subcommittee on 
National Security, Emerging Threats and International Relations 
hearing entitled, ``Combating Terrorism, Assessing Federal 
Assistance to First Responders,'' is called to order.
    Let me first thank the city of Stamford and the U.S. 
Department of Homeland Security [DHS] for allowing the 
subcommittee to embed this hearing in the emergency response 
tabletop exercise now underway. We are here because, whether 
directed at Washington, DC, or Washington, CT, all terrorism is 
local. As a Nation, our preparedness to meet the terrorist 
menace can only be measured in the strength and readiness of 
local first responders.
    How prepared are we to meet the uncertain, changing threat 
of terrorism, specifically the dangers posed by chemical, 
biological, radiological or even nuclear weapons? Exercises 
like today's will help answer that question. But this we 
already know: Unless efforts to train and equip first 
responders are sharply focused and aggressively funded, those 
sworn to protect public health and safety will be asked to 
confront mortal perils without all the tools they need to 
survive and prevail.
    Well before September 11, 2001, this subcommittee focused 
on the needs of first responders for real-time threat 
information, the need for an overarching strategy to guide 
their efforts and the need to reorganize government at all 
levels to implement that strategy effectively and efficiently. 
In numerous sessions from Connecticut to Florida, we have heard 
testimony from police officers, firefighters, HAZMAT teams, 
emergency medical personnel and other experts expressing 
frustration over the extent and pace of Federal 
counterterrorism equipment and training programs. They told us 
fragmentation and duplication hobbled a multi-jurisdictional, 
multi-agency, multi-billion dollar preparedness effort.
    Since the September 11th attacks, much has been done, and a 
great deal of money has been spent to consolidate and focus 
Federal support for first responders. But last week we heard 
sobering evidence that local emergency personnel remain 
dangerously ill-prepared to handle a catastrophic attack on 
American soil.
    The recent report of the Independent Task Force of the 
Council of Foreign Relations [CFR] found that Federal agencies 
have been slow getting funding to State and local 
jurisdictions, and States have hampered the efficient 
dissemination of much-needed Federal funds to the local level. 
According to the report, the overall effectiveness of Federal 
funding has been further diluted by the lack of a process to 
determine the most critical needs of the emergency responder 
community in order to achieve the greatest return on 
investments.
    The key reason cited by the CFR Task Force for the current 
preparedness deficit was the lack of concrete, threat-based 
equipment and training standards against which to measure State 
and local capabilities. Standards capture community consensus 
and collective wisdom on the minimum that would be achieved 
with scarce public resources. Development of preparedness 
standards would transform unfocused motion into real progress 
toward actual preparedness. Standards should also guide 
allocation of scarce resources.
    The question of whether first-responder funding goes 
through the State or directly to localities is not an all-or-
nothing proposition, especially in a State like Connecticut 
where the absence of counties can leave mid-sized cities like 
Stamford at a disadvantage in national funding formulae 
directed only to large metropolitan areas. Funding, even 
through the State, must be timely and commensurate with need as 
calibrated by objective preparedness standards.
    This week, the subcommittee will launch a bipartisan call 
for development of national preparedness standards. We will 
call on DHS and the relevant congressional committees of 
Congress to consolidate and coordinate ongoing standard 
programs to produce measurable norms for equipment and training 
readiness to meet the terrorist threat. What we see and hear 
today will be of inestimable value in that effort.
    Again, we thank Mayor Malloy and his administration for 
their hospitality and help in giving the subcommittee this 
opportunity to examine local preparedness initiatives first-
hand. We look forward to his testimony, and that of all our 
witnesses today, as we strive to improve the immediacy, impact 
and efficiency of Federal first responder programs.
    At this time, the Chair would invite the distinguished 
representative Carolyn Maloney from New York to make any 
statements that she would like to.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T2125.001
    
    [GRAPHIC] [TIFF OMITTED] T2125.002
    
    [GRAPHIC] [TIFF OMITTED] T2125.003
    
    Mrs. Maloney. I thank Chairman Shays and Vice Chairman 
Turner, Mayor Malloy and the entire team that worked today to 
put the exercises before us. It was tremendously informative 
and extremely helpful.
    I am a former member of the New York City Council and not 
only serve on Chris' subcommittee, but am Chair of the 
Democratic Task Force for Homeland Security. So this is an 
issue that is tremendously important to both parties. It is one 
that we have truly worked together in a bipartisan way. One of 
the good things about our government--I am going to put my 
opening statement in the record--is that we are taught to 
question. And one of the things that I would like to hear from 
the panelists today is exactly what you need and are you 
getting what you need from the Federal Government?
    Just last week our committee had a very important hearing 
with former Senator Warren Rudman, on his recently released 
study from the Council on Foreign Relations called Emergency 
Responders Drastically Underfunded and Dangerously Unprepared. 
And in it he outlined that the resources are not getting there. 
He called for $100 billion more on emergency responders.
    I found it very interesting throughout the entire display, 
no one called for the Federal Government. I kept waiting for 
when the call was going to FEMA or the FBI Central or to the 
President and Vice President. But truly in an emergency it is 
the first responders that are there reacting to the immediate 
crisis on line.
    As a New Yorker I am very proud of our mayor and our 
government and our first responders. In fact, the last bill 
that I passed--actually the last bill that Congress passed on 
the day of September 11 was giving the Congressional Gold 
Medal, the highest award that can be bestowed to those 
responders who gave their lives helping others, and to their 
units, their firehouses and emergency units as an artifact from 
that day.
    Your talk about how we would handle the transportation 
vividly brought back September 11 where I started driving back 
to New York, everything was barricaded, and to tell you the 
truth, it was the only time that my congressional ID was worth 
anything, because I could get through all of the barricades. 
And as you got closer and closer to New York, the only people 
you saw were emergency responders coming in from Connecticut, 
New Jersey, Massachusetts, almost as a reflex running into the 
city of New York and heavy equipment coming in, tractors, etc., 
to respond.
    One thing that is lost in all of the discussion is that 
September 11 was truly the most miraculous rescue effort in the 
history of our country. On September 12 the estimates were that 
20,000 people died. We know it is less than 3,000. We do not 
know how many lives each of these heroes saved by rushing into 
the fires.
    One thing that I find troubling are the numbers that have 
been released by New York City's police department. They tell 
us that on July before the attacks there were over 39,000 
police officers in New York City, but as of this July there 
were only 37,000, a reduction of over 2,000 police officers. 
The fire department says the same. So I fail to understand how 
we can respond in a better way if our resources or manpower is 
not as strong as it was before.
    I have to say that I thought the exercise today was 
brilliant really, and I congratulate everyone who participated. 
It appears that you have done a great deal of work since 
September 11 to get ready. I would be interested today to hear 
what your plans are in responding to New York. Regrettably New 
York remains the No. 1 terrorist target not only in our region 
but in the entire world. When Connecticut is yellow, we're 
orange; when Connecticut is orange, we're red and by all 
accounts we are a major target. So part of it will be, 
regrettably, hopefully not the case, but how Connecticut will 
again respond to such a situation in New York again as you so 
brilliantly did coming and standing with us.
    In short, I look forward to your testimony and the 
opportunity to ask questions. Thank you, Mayor Malloy for your 
leadership in having us today.
    Mr. Shays. Thank you. At this time, the Chair would 
recognize the vice chairman, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I want to thank our chairman, Chairman Shays, for his 
leadership in this area. We all know that even prior to 
September 11, Chairman Shays was a leader in our country in 
making certain that communities looked to the issue of their 
vulnerabilities and also to look at issues at a national level 
as to how we need to be equipped to respond. Chairman Shays 
encouraged these types of exercises even prior to September 11 
and encouraged this exercise to occur.
    I want to congratulate the mayor. Certainly, as I have gone 
from tabletop to tabletop, I have seen some tremendous 
leadership in your community and surrounding communities. And 
this certainly is a topic that is one that you are not ill 
prepared for. You can tell the people have had these 
discussions and that this exercise is one that compliments the 
work that you have already done.
    I served as mayor of the city of Dayton from about 1993 to 
2001 and we were one of the cities that also had a weapons of 
mass destruction exercise prior to September 11. We had an 
actual mock exercise at a basketball arena, had a play where 
two devices were placed, one inside the facility and one 
outside the facility. And from that, we learned a tremendous 
amount. And as I went from tabletop to tabletop, I heard the 
types of issues that you were discussing that we faced.
    I know from our exercise when September 11 happened, we 
were a community that was much more prepared. We had people who 
had responsibility, knew what their responsibilities were, we 
knew what roads to shut down, we knew what processes to put in 
place.
    Even though we are not in close proximity, as you are, to 
New York, we were a community that contributed responders to 
the situation, both from our HAZMAT teams and our fire and 
additional police.
    One thing that has been wonderful in serving under Chairman 
Shays, as you see in this hearing today, is that this is not 
just an exercise in getting additional information. Chairman 
Shays works to make certain that legislation or regulations are 
modified that need to respond to the issues that are brought 
forth today. So we are looking for the information you provide 
to us.
    Also in addition to this, Chairman Shays has been holding a 
series of hearings on issues of strategic targets throughout 
our country and how they might have new vulnerabilities and 
what we need to be responding there.
    So any information you provide us today will actually go to 
formulation of policy, legislation and reforms in regulation 
and will be a complement to the information that this committee 
has been gathering on strategic locations.
    I look forward to your testimony.
    Mr. Shays. I thank the gentleman.
    What you all are experiencing is what we call congressional 
courtesy where Members from outside of the District say nice 
things about the Member in the District.
    Mr. Turner. That is if they are true. [Laughter.]
    Mr. Shays. Let me just say that it is a privilege to have 
both these Members. They could be in their own districts right 
now and for them to spend their day with us is a real 
compliment. I just want to also say before recognizing our 
witnesses that all three of us were talking about how proud we 
are of our country--how proud we are to be in a room with so 
many competent people. We just felt, all of us, that we were 
just seeing a lot of competence and yet we all know we have a 
lot to learn.
    So with that, let me just take care of some business. I ask 
unanimous consent that all members of the subcommittee be 
permitted to place an opening statement in the record and the 
record will remain open for 3 days for that purpose. Without 
objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
And without objection, so ordered.
    At this time, I will just recognize the witnesses we have 
before us. We have the Honorable Dannel P. Malloy, mayor of the 
city of Stamford; we have Mr. Ted Macklin, assistant director, 
Office for Domestic Preparedness, Department of Homeland 
Security; we have Mr. Daniel Craig, Regional Director, 
Department of Homeland Security; and taking Mr. Vincent 
DeRosa's place, who is not well today, we have Donald F. Petri, 
State of Connecticut Department of Public Safety, Division of 
Homeland Security. Petri, am I saying it correctly?
    Mr. Petri. Yes, sir.
    Mr. Shays. Thank you. And accompanied by Charles Beck, 
chief, Domestic Preparedness Division, State of Connecticut, 
Office of Emergency Management.
    I am going to swear you gentlemen in, as you know that is 
our practice. If there is anyone else that you think you may 
call on to make a statement or respond to a question, I would 
ask them to stand up at the same time.
    And I am sorry, I left out my very good friend--I am sorry, 
Chris--I saw Dan pointing this way and I was not getting the 
message. [Laughter.]
    I am very delighted, Chris, to have you here, one of the 
most competent people I know, head of SACIA and it is very nice 
to have you here as well. You are going to be closing up the 
comments.
    At this time, I would ask you all to stand, please.
    [Witnesses sworn.]
    Mr. Shays. Thank you. At this time, we will recognize Mayor 
Malloy. Dan, we do 5 minutes and we roll over. I think we are 
going to try to crunch this up a little bit, so we can get 
that. So your full statements will be in the record.

 STATEMENTS OF DANNEL P. MALLOY, MAYOR, CITY OF STAMFORD, CT; 
TED MACKLIN, DIRECTOR, EXERCISE AND EVALUATION DIVISION, OFFICE 
    FOR DOMESTIC PREPAREDNESS, U.S. DEPARTMENT OF HOMELAND 
 SECURITY; DANIEL A. CRAIG, REGIONAL DIRECTOR, FEMA REGION I; 
DONALD PETRI, DEPARTMENT OF PUBLIC SAFETY, DIVISION OF HOMELAND 
SECURITY, STATE OF CONNECTICUT, ACCOMPANIED BY CHARLES C. BECK, 
  CHIEF, DOMESTIC PREPAREDNESS DIVISION, OFFICE OF EMERGENCY 
   MANAGEMENT, STATE OF CONNECTICUT; AND CHRISTOPHER BRUHL, 
       PRESIDENT AND CHIEF EXECUTIVE OFFICER OF THE SACIA

    Mayor Malloy. Congressman, I want to thank you very much 
for bringing the entire subcommittee, members of the 
subcommittee, with you. We very much appreciate this 
opportunity. I think we have learned a great deal. I will not 
read my statement, I will, on the other hand, make a few points 
in the nature of crunching this together.
    This is an important exercise and one which I would 
certainly recommend to all regions and mayors and first 
selectmen throughout Connecticut and any other portion.
    Mr. Shays. Let me just--can you hear in the back or do we 
need to put these mics in front of us? Can you hear in the back 
all right? OK, we are all right.
    Mayor Malloy. I will try to do a little bit better.
    So I certainly would recommend this activity and I want to 
say that since September 11, this is one of the most useful 
things that we have done, being brought to us by an outside 
governmental agency. Clearly we have done, and I think we have 
evidenced, a fair amount of work within the community during 
the period of time to improve our readiness and I think we are 
demonstrating that in many ways today.
    My written statement, which has been submitted, makes a few 
points, but I do want to say that the funding of equipment for 
first responders is very important. There is a perfect storm 
out there with respect to the operation of municipal 
government. With rising prices, particularly for employee 
insurance benefits, decreased availability of funds from State 
and Federal agencies in many cases, but also effects of tax 
base. And all of this had led to a drying up of funds that 
might otherwise be dedicated on a local basis to preparedness.
    To Congresswoman Maloney's point, Stamford's police 
department is today smaller than it was on September 11 and 
that is in no small part due to the effects or the conditions 
which I have described.
    However, money is starting to flow to local jurisdictions. 
But back to Congressman Shay's point, Connecticut, I suspect 
Massachusetts and Rhode Island, have similar problems in the 
sense that we do not have county government and we are dealing 
as 169 municipalities with the State government. There needs to 
be the setting of priorities and the probability, for instance, 
of sites of attack and therefore, funds being driven that way.
    But money has started to flow and some equipment is 
starting to be distributed, such as decontamination units, one 
of which is now based in Stamford, another which is based in 
Greenwich, and highly appropriate. We are also starting to see 
coordination of activities. One of our great fears, however, in 
lower Fairfield County and southwestern Connecticut is the 
availability of State and Federal resources and their ability 
to respond in a very congested part of the State of 
Connecticut. One of the points that I have already made mental 
note of with respect to today's exercise is whether or not 
certain local officials should be designated to carry on those 
State activities that would otherwise be coordinated in 
Hartford in the absence of the availability of people to get to 
Stamford from another portion of the State.
    Finally, I would like to make a point that local 
governments can be overwhelmed. Certainly a terrorist attack 
could overwhelm or emergency responders. You know, for 
instance, if this exact event happened in Darien as opposed to 
Stamford, Stamford would be equally impacted but Darien would 
not have the resources to throw at the issue that we have here 
in Stamford. It could be same incident, very different 
reactions, very different impacts on the intermodal travel and 
likewise.
    So we have to be cognizant of the fact that we can in fact 
be overwhelmed, that additional coordination efforts need to be 
undertaken by the State and Federal Government and that we as 
localities need to work more closely together.
    Mr. Chairman, I would like to thank you for the opportunity 
to appear before you and stand ready to answer questions when 
appropriate.
    Mr. Shays. Thank you, mayor. Mr. Macklin.
    [The prepared statement of Mayor Malloy follows:]

    [GRAPHIC] [TIFF OMITTED] T2125.004
    
    [GRAPHIC] [TIFF OMITTED] T2125.005
    
    Mr. Macklin. Good morning, Chairman Shays, Vice Chairman 
Turner, Congresswoman Maloney. I am Ted Macklin from the Office 
of Emergency Preparedness. As you know, ODP is a component of 
the Department of Homeland Security. It is a pleasure and 
privilege to be here today to talk about ODP's efforts to 
provide support to our Nation's emergency responders.
    I am pleased to be here in Stamford, CT, as the city 
participates in an important exercise to practice its response 
capabilities to a mock terrorist incident. On behalf of Tom 
Ridge, the Department of Homeland Security and the Office for 
Domestic Preparedness, I would like to express my appreciation 
for your support and your interest in Federal programs to 
combat terrorism.
    Assisting States and localities is critical to DHS' mission 
of protecting the homeland. As Secretary Ridge has often 
stated, the homeland is secure only when the hometowns are 
secure. And the way to ensure that hometowns are secure is to 
ensure that State and local officials, State and local 
emergency response agencies and State and local emergency 
response personnel have the resources, the information and the 
tools they need to do their jobs.
    Four days ago, we marked the second anniversary of the 
terrorist attacks on September 11, 2001. The lessons of 
September 11 are as true today as they were then--that State 
and local personnel are the first on the scene of any 
emergency, including acts of terrorism, to save lives, often at 
the risk of their own.
    As you are aware, Mr. Chairman, DHS was established to 
better enable the Nation to defend its borders, enhance its 
security and respond to external and internal threats and 
attacks.
    In the 8 months since DHS was established, significant 
progress has been made toward making America safer. To this 
end, since its creation, the Department has provided a 
significant amount of funds to States, cities and localities to 
prevent, prepare for and respond to acts of terrorism. DHS has 
provided more than $4 billion to State and local governments to 
assist first responders and offset costs of improving overall 
preparedness and enhanced security. A large majority of this 
assistance, including today's exercise, is provided through the 
Office for Domestic Preparedness.
    Before the creation of DHS in March 2003, ODP was a 
component of the Department of Justice. With the passage of the 
Homeland Security Act of 2002, ODP was transferred to DHS and 
designated the principal Federal agency for assisting States 
and local jurisdictions to prepare for, prevent and respond to 
incidents of terrorism.
    Since its establishment in 1998, ODP has provided more than 
$4.3 billion to our Nation's emergency response community for 
equipment acquisition, exercise support, training and technical 
assistance efforts. ODP has delivered weapons of mass 
destruction awareness, operations, technician and incident 
command level training to more than 304,000 emergency 
responders from approximately 5,000 jurisdictions nationwide.
    Additionally, ODP has conducted more than 260 preparedness 
exercises, including the congressionally mandated Top Officials 
I and Top Officials II exercises, most recently being concluded 
in May 2003 in Seattle and the city of Chicago.
    The State of Connecticut has benefited from this funding 
and support. From fiscal year 1998 through fiscal year 2002, 
ODP has provided more than $7 million in equipment acquisition, 
planning and exercise support funds. During fiscal year 2003, 
the State has received an additional more than $30 million 
under the State Homeland Security Grant program for equipment 
acquisition, exercise support, training and management and 
planning.
    It is a priority of this administration and the department 
to effectively and efficiently meet our responsibility to 
support first responders in fulfilling their critical role in 
our Nation's counter-terrorism efforts. We at DHS take very 
seriously the need to ensure that Federal support is focused 
and well organized.
    The Department recognizes the financial constraints placed 
on State governments which require difficult decisions to be 
made about limited resources. Nevertheless, it is the 
Department's view that Federal, State and local governments 
have a shared responsibility with respect to homeland security 
efforts. As such, State and local governments should take 
responsibility to directly fund a portion of the costs 
associated with domestic preparedness, including personnel 
costs. The Federal Government's role, on the other hand, should 
largely be geared to capacity building at the State and local 
level. One of the most important Federal roles is also to 
provide guidance, subject matter expertise and technical 
assistance. There is also an important shared responsibility at 
all levels of government to maintain accountability--to be able 
to provide assurance that the needed capability has been 
developed or that any shortfalls are identified and addressed.
    Another critical component of ODP's mission is its ongoing 
Training and Technical Assistance Program, which provides an 
extensive array of training to Federal, State and local 
agencies. Through this program, ODP provides more than 30 
direct training and technical assistance courses and programs 
to State and local officials.
    Perhaps the most notable means through which ODP provides 
support to States and localities is the State Homeland Security 
Grant Program. Through this program. ODP provides funds to all 
50 States, the District of Columbia, Puerto Rico and the 
territories for the acquisition of specialized equipment that 
could be used to prevent, deter and respond to terrorism.
    Mr. Shays. Why do you not just make a last closing sentence 
here.
    Mr. Macklin. Yes, sir.
    Sir, we at DHS are convinced that these programs are 
working at this time and we are extremely supportive of the 
activities of your subcommittee and we look forward to working 
with you shoulder to shoulder as we advance the cause of 
terrorism preparedness in the Nation.
    Mr. Shays. Thank you, Ted. We have more of the information 
and it will be part of the record. Sorry to rush you this time, 
but we are just trying to finish up here.
    Mr. Macklin. Yes.
    Mr. Shays. Mr. Craig.
    [The prepared statement of Mr. Macklin follows:]

    [GRAPHIC] [TIFF OMITTED] T2125.006
    
    [GRAPHIC] [TIFF OMITTED] T2125.007
    
    [GRAPHIC] [TIFF OMITTED] T2125.008
    
    [GRAPHIC] [TIFF OMITTED] T2125.009
    
    [GRAPHIC] [TIFF OMITTED] T2125.010
    
    [GRAPHIC] [TIFF OMITTED] T2125.011
    
    [GRAPHIC] [TIFF OMITTED] T2125.012
    
    [GRAPHIC] [TIFF OMITTED] T2125.013
    
    Mr. Craig. Good afternoon, Chairman Shays, Vice Chairman 
Turner, Representative Maloney and distinguished members of 
this committee. My name is Daniel Craig and I serve as the 
Regional Director of FEMA Region I. On behalf of Secretary 
Ridge and Under Secretary Brown, it is my privilege to be with 
you today to discuss FEMA's role in emergency preparedness and 
response.
    As you know, the Federal Emergency Management Agency was 
transitioned into the U.S. Department of Homeland Security in 
March of this year. That transition has strengthened FEMA's 
core mission of preparing for and responding to acts of 
terrorism and natural disasters. It has also provided a closer 
working relationship with other Federal agencies as well as 
State and local governments.
    On February 28, 2003, the President signed the Homeland 
Security Presidential Directive 5, HSPD-5, on the management of 
domestic incidents to establish a single comprehensive national 
incident management system and to integrate separate Federal 
response plans, including the current Federal response plan 
into a single, all discipline, all hazards national response 
plan. The Secretary of Homeland Security is responsible for 
developing and implementing both initiatives. FEMA is actively 
participating in the task force created by Secretary Ridge to 
develop a National Response Plan and a framework for a National 
Incident Management System. As directed by the Department of 
Homeland Security Act of 2002, FEMA will play a key role in the 
management and maintenance of NIMS once it is developed.
    To ensure better coordination and management of disaster 
relief, FEMA currently utilizes a Federal Response Plan [FRP]. 
The FRP establishes FEMA as the lead coordinating agency for 
all Federal disaster relief. A total of 27 separate Federal 
departments and agencies have signed on as partners under the 
plan and work with FEMA to deliver disaster services in 
Presidentially declared emergencies and disasters that 
overwhelm State and local resources. One of the FRP's unique 
features is that it divides the Federal disaster relief efforts 
into distinct functional areas called Emergency Support 
Functions. These 12 functions are based on the types of direct 
Federal assistance that a State is most likely to need in case 
of a disaster. Each ESF is headed by a primary agency designed 
on the basis of its authorities, resources, capabilities in 
that functional area. These functions include transportation 
with the Department of Transportation being the lead; 
communications with the National Communications System; public 
works and engineering with the Corps of Engineers; 
firefighting, the U.S. Department of Agriculture; information 
and planning, FEMA; mass care with American Red Cross; resource 
support with the General Services Administration; health and 
medical services with the Department of Health and Human 
Services; urban search and rescue with FEMA; hazardous 
materials with the EPA; food with the U.S. Department of 
Agriculture; and energy with the Department of Energy.
    FEMA operates an Emergency Support Team which presently is 
up on a 24-hour basis because of Hurricane Isabel at our 
headquarters in Washington, DC, to coordinate and manage the 
initial response to major disasters, deploy assets, locate 
needed relief supplies and provide full range of disaster 
assistance 24 hours a day, 12 hour shifts until field teams can 
take over the response.
    At the same time we begin disaster response operations in 
Washington, our regional staff activate the regional operation 
centers which serve as the point of contact for State 
government seeking disaster assistance. Staff in our regional 
offices are key to disaster operations and they are among the 
first on the scene of a disaster. At the request of the State, 
the region will deploy a response liaison officer to act as an 
intermediary to address State concerns with FEMA. When an act 
of terrorism or natural disaster strikes and overwhelms the 
State and local capabilities, the Governor of the affected 
State can petition the President through FEMA for regional 
assistance. A senior FEMA official known as the Federal 
Coordinating Officer is appointed to head up the disaster 
response and recovery operations for FEMA and coordinate 
delivery of assistance with individuals and with State and 
local governments.
    In a Presidentially declared disaster, individuals may be 
eligible for assistance to help them recover from damages to 
residences, businesses and personal property. Assistance can 
include temporary housing, unemployment assistance, food 
coupons, family grants, low interest loans, legal aid and 
crisis counseling. Assistance may also be available through 
State and local governments and certain private nonprofit 
organizations for repair of infrastructure and public 
facilities. The assistance can include emergency protective 
measures, clearance of debris, repair, restoration and 
replacement of damaged facilities, equipment and contents.
    Partnerships among the Federal departments and agencies, 
among the various levels of government, among emergency 
managers and first responders and among public, private and 
volunteer entities are key to successful disaster response 
operations and maintenance of the Nation's comprehensive 
emergency management system. Partnerships also help us prepare 
for potential hazards. Our preparedness mission is to provide 
the technical expertise, guidance, assistance necessary to 
establish, maintain and improve and ensure the success of a 
comprehensive emergency preparedness system. We accomplish this 
mission through activities, programs and a broad range of 
functions of emergency planning, training, exercise, 
partnerships and outreach to all levels of the Federal 
Government. For example, the Emergency Management Institute, 
the National Fire Academy in Emmitsburg.
    We now are a major component in the Department of Homeland 
Security and FEMA's mission will only become more important in 
the years to come.
    I will take any questions.
    Mr. Shays. Thank you very much. Mr. Petri.
    [The prepared statement of Mr. Craig follows:]

    [GRAPHIC] [TIFF OMITTED] T2125.014
    
    [GRAPHIC] [TIFF OMITTED] T2125.015
    
    [GRAPHIC] [TIFF OMITTED] T2125.016
    
    Mr. Petri. Thank you. Good morning, Chairman Shays, Vice 
Chairman Turner and Representative Maloney. On behalf of 
Governor John Rowland and Commissioner of Public Safety Arthur 
Spada, it is my pleasure to welcome you and your subcommittee 
to the State of Connecticut.
    I am pleased to appear before you today to report that 
substantial progress is being made to provide equipment and 
training to Connecticut's first responders. Indeed, they are 
better prepared to deal with a chemical, biological, 
radiological, nuclear explosion today than any time prior.
    Two years ago, the horrific events of September 11 and the 
subsequent anthrax incidents fostered a reexamination of the 
logistics of Connecticut's public safety and emergency 
services.
    With 169 municipalities, over 300 fire districts, two 
tribal nations, significant centers of industrial and 
commercial enterprise, substantial marine activity and notable 
population centers within and adjacent to our borders, the 
diversity of interests, perspectives and priorities seemed 
overwhelming. Governor Rowland led the effort to marshal 
Connecticut's resources toward a coordinated strategy for 
preparedness and response.
    Toward that end, he designated the Department of Public 
Safety, Division of Homeland Security as the lead agency in 
that effort. By adopting a proactive approach for prevention 
strategies in collaboration and cooperation with Federal, State 
and local entities, Connecticut pursued, secured and allocated 
all available Federal funding to outfit and train each first 
responder within the State.
    This was accomplished by building from the pre-existing 
foundation established by State, regional and local entities 
under the auspices of the State Office of Emergency Management. 
Prioritizing the most critical needs, a three-prong program has 
been implemented to enhance existing equipment inventories, to 
provide additional training as well as practical exercises, and 
undertake a vigorous assessment of anticipated needs to serve 
as a realistic planning platform for future funding.
    A leading priority is to place each first responder in a 
position of knowledge and safety when confronted with a CBRNE 
event. All first responders are being outfitted with personal 
protective equipment appropriate to their disciplines--that 
being hazmat, fire, police and emergency services. Training in 
use of personal protective equipment sponsored by ODP has been 
conducted. Overtime costs incurred for public safety 
authorities for training and for periods of heightened alert 
status have been defrayed.
    Metering packages for each jurisdiction within the State 
have been acquired and distributed, as have specialized hazmat 
metering packages for urban and regional teams.
    Thirty-four prime movers and mass decontamination trailers 
are being distributed throughout the State with interoperable 
radio communications centers. Each of the primary and secondary 
public safety answering points are now equipped with mobile 
radio stations at the interoperable frequency. Key local 
officials are being assigned portable radios at the 
interoperable frequency. Bomb trucks and a robotic device for 
local law enforcement are in place.
    An interdisciplinary urban search and rescue task force 
staffed by State and local first responders has been 
established. Relative to this last point, I wish to publicly 
express my appreciation to officials across the State who have 
volunteered their time to develop, recruit, interview and 
select the highly skilled local volunteers comprising this task 
force.
    A key feature of our training regimen is the partnership 
that has been developed between the Department of Public 
Safety, Department of Homeland Security and the University of 
Connecticut in the creation of the Homeland Security Education 
Center. Integrating the expertise of the Police Officers' 
Standards and Training Council, Connecticut Fire Academy, 
Office of Emergency Management and academic professionals, this 
center will provide a continuous improvement model of 
organizational development. Specific goals include training 
6,000 first responders, elected officials and program 
administrators in CBRNE awareness, performance and management 
level training programs currently available through the Office 
of Domestic Preparedness. For the first time in Connecticut, 
the training will integrate a CBRNE Exercise and Evaluation 
Program within the curriculum.
    At this time, Connecticut is participating in a detailed 
assessment mandated by the Federal Office of Homeland Security. 
DPS and DHS worked with the Office of Domestic Preparedness to 
offer each jurisdiction the opportunity to participate in 
training and receive technical assistance in the assessment 
process. This task is critical to our future level of 
readiness. Citizens and officials across our State will build 
this assessment by investing countless hours in performing 
unglamorous tasks. These reports must be submitted to DPS and 
Department of Homeland Security by November 1, 2003. A 
statewide strategy based on this data must be compiled, 
analyzed and submitted to the Office of Domestic Preparedness 
by December 31.
    In closing my remarks, I wish to acknowledge their efforts 
for they are performing truly heroic deeds that will go largely 
unheralded. It is only fitting that we recognize the broad-
based citizen participation that we are attempting to build 
through programs such as Citizens Corps initiative, the 
community emergency response team program that is the most 
essential ingredient in maintaining our free and secure 
society.
    Thank you.
    Mr. Shays. Thank you very much. Mr. Bruhl.
    [The prepared statement of Mr. Petri follows:]

    [GRAPHIC] [TIFF OMITTED] T2125.017
    
    [GRAPHIC] [TIFF OMITTED] T2125.018
    
    [GRAPHIC] [TIFF OMITTED] T2125.019
    
    [GRAPHIC] [TIFF OMITTED] T2125.020
    
    Mr. Bruhl. Thanks very much, Mr. Chairman, for the 
invitation to meet with you today. I have the honor of serving 
as president of a network of close to 500 companies here in 
Fairfield County.
    Over the last 2 years obviously, government and industry 
have really taken important steps to improve security. Progress 
has been made, we all share the commitment that more needs to 
be done.
    Business comes at it from the point of view of feeling we 
share responsibility with the public sector for our own 
people--and I would like to underscore the idea of our own 
people. We have a responsibility that transcends merely calling 
for help. We have a belief that we need to provide help from 
the very first moment forward and we need to anticipate 
circumstances that might arise.
    As a result of that, our member firms have been, over the 
last 2 years, conducting a regular program of leadership 
dialogs among our security and crisis management leadership. We 
have reached out to our first responders throughout the region. 
We have participated in regional readiness exercises. We have 
had a regular formal exchange of corporate best practices. We 
have conducted advocacy in the public sector, security issues. 
I might note that eight of our participating companies are 
participating today and they have more than 15,000 employees in 
the city of Stamford.
    So what have we learned over the last 24 months that we 
would like to share with you in response to your invitation?
    First, communication is key. Public officials, private 
sector leaders and citizens need timely information upon which 
to base their actions.
    Second, homeland security is a shared responsibility. We 
need to coordinate every level, every aspect in a far more 
detailed way than we have previously. And also, the critical 
role of the private sector and the media play in readiness and 
response recovery needs to be more fully recognized and 
embraced, we believe, by the public sector.
    And finally, a management structure that is understood and 
embraced by all first responders--the same structure needs to 
be in place.
    You have asked us to focus our comments on the appropriate 
role for Federal agencies and ways that we might improve your 
ability to support local and State response activities. We have 
four key areas of suggestions: First, leadership role for the 
Federal Government; a role as an educator; a facilitator; and 
of course financier.
    In the Federal Government's leadership role, we believe it 
is critical to continue to develop the homeland security 
strategy or road map and to set benchmarks for local and State 
agencies. We need consistency. An important part of that is to 
adopt the unified command system as a national best practice. 
All of our first responders need to utilize the same management 
framework at every critical incident and disaster operation. 
Fire departments have almost universally adopted the incident 
command system, yet other first responders still have different 
protocols. And people of good will and excellent training who 
do not share the same protocols and who have not trained 
necessarily together will find confusion rather than 
cooperation, regardless of their intent, in the heat of an 
event. We think also that this management structure needs to 
include and be shared with the private sector. We had the 
blackout referred to many times this morning of recent event, 
in which our major employers allowed their people or could not 
stop their people from all going home together; therefore, 
creating each other's traffic jam. A plan in advance would have 
mitigated some of those impacts.
    In the role of educator, we believe that it is appropriate 
to highlight best practices and provide training resources. 
This morning's exercise is a wonderful example. Eighty-five 
percent of the critical infrastructure is either owned or 
operated by the private sector in this country, 85 percent of 
the people participating in readiness exercises are not private 
sector representatives.
    We are kind of pushy people here at SACIA, I suppose, and 
we have reached out and invited ourselves to participate. Last 
year, we participated in a Bridgeport regional exercise and we 
were the only private sector participants.
    Earlier this summer, we were the only private people in 
FEMA Region I at the Newport War College exercise.
    Today, we are delighted to participate with you and the 
city of Stamford in this exercise.
    And in October, we will take part in Livewire, a national 
cyber security training exercise.
    In every case, we were welcomed, but we needed to invite 
ourselves. And we were lonely when we got there because we were 
the only people who invited ourselves--being pushy. But as we 
go forward, we believe it should be an important part of the 
protocol that the private sector must be invited to take part 
in this planning. In some ways, it would be in their best 
interest to participate, some may decline. But at the very 
least, let us be sure that we reach out to involve people in 
training, because absent that, the communication that we know 
is so essential to make something work simply will not be 
there. We will be relying on a dozen different media offering a 
dozen media outlets offering a dozen different interpretation 
of events and we need to have direct links.
    The facilitator role, we have already mentioned. It is an 
important activity to be sure that our various agencies at the 
Federal, local and State level are able to work together. For 
example, Congresswoman Maloney, you asked about Connecticut 
coming to New York. Connecticut is in FEMA Region I, we do not 
drill with New York, and so therefore we need to look across 
these boundaries to enable ourselves to participate and to help 
each other across these boundaries. They are artificial 
boundaries that windstorms and terrorists do not respect.
    And finally, of course, I would just like to add our 
private sector voice to those of the public sector that have 
spoken already today, the role of the Federal Government as 
financier. Your money is critically important as local and 
State governments go through the financial storm of the 
century.
    Thank you.
    [The prepared statement of Mr. Bruhl follows:]

    [GRAPHIC] [TIFF OMITTED] T2125.021
    
    [GRAPHIC] [TIFF OMITTED] T2125.022
    
    [GRAPHIC] [TIFF OMITTED] T2125.023
    
    Mr. Shays. I would like to thank all of our witnesses for 
their very helpful statements and just point out, it is rather 
surprising but the only politician in this group was the most 
punctual. [Laughter.]
    So that is some mark of achievement.
    I want us to be very candid. I am going to run us over 10 
minutes. We had 15 minutes. We do not need a lot of nice little 
talk here, we need as direct and as honest conversation as we 
can have.
    I am going to turn to Mr. Turner first, but I am going to 
have Mr. Craig, have you anticipate a question I am going to be 
asking, why should we not be part of New York and train with 
New York throughout the metropolitan area. I know you live in 
Connecticut, so I love that.
    Mrs. Maloney. Point of personal privilege since you 
mentioned New York. I know that even though you did not train 
with New York, Connecticut responded because I saw the police 
and fire and equipment coming in from Connecticut to our aid, 
and on behalf of my constituents, I thank you.
    Mr. Shays. Thank you.
    Mr. Turner. Mr. Bruhl, I want to congratulate you on the 
participation that you have from the business community. 
Certainly we noted as part of this exercise that some of the 
businesses had put into place their emergency response teams 
that are working in coordination with this exercise.
    It was also interesting to see how quickly in the 
discussion the issue of liability came up and how that is going 
to restrain our abilities for private sector organizations, 
specifically in the area of hospitals, how they might operate. 
I know that is going to be a continuing issue for the private 
sector.
    My question is for the mayor. Our chairman has been a 
leader in advocating for the issue of national equipment and 
performance standards really looking at the process of 
establishing a national threat assessment, from that deriving 
national equipment and performance standards. Recognizing that 
there are national associations, certainly professional 
associations, that would be first responders, there is 
community experience and research, there is obviously State and 
national agencies that provide some guidance, but the 
Department of Homeland Security currently does not have in 
place for you to follow national equipment and performance 
standards that would coincide with grant application processes 
and funding processes, and also guidelines as to what you 
should have in your inventory as you look to responding. I 
wanted your thoughts and comments on that.
    Mayor Malloy. It is an interesting question, Congressman. 
You do not know this, but as mayor of the city of Stamford, I 
actually have six different fire companies. So we are just 
about being our own schedule for that which is purchased within 
the city with city funds, but distributed to volunteer 
companies. So I can appreciate the difficulty.
    I think it is a very important movement. I think standards 
across the board need to be set. I think it is part of the role 
that the Congress could in fact play if they were desirous of, 
or appropriate agencies could do. But clearly, one of our 
concerns will continue to be what equipment other people show 
up with if they respond in Stamford from surrounding 
communities or States. And I think it is an important interest.
    Mr. Turner. Thank you.
    Mr. Shays. Would anyone else like to address that question 
real quick?
    Mr. Petri. Yes, just a comment concerning the equipment 
that first responders will show up with. In the handout of 
personal protection equipment, great effort was made to 
standardize the colors of various chemical suits so that all 
police responding to a scene are in a particular color, all 
fire officials are in a particular color, etc. That will go a 
long way I think toward addressing some of the mayor's concern.
    Mr. Shays. Thank you. Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman.
    I sometimes feel a disconnect between the rhetoric and the 
reality of what is on the ground, and what I heard today from 
the panel, the first responders that were reporting, we heard 
from the police group that they only have about 14 protective 
suits. I suppose that means hazmat suits. And that they had 
only escape hoods. Well, in the case of a chemical or 
biological attack, they are going to need more than escape 
hoods and they are going to need masks to be able to go in and 
help. Otherwise, they will just die themselves.
    Then we also heard that they do not have equipment for 
interoperable communications with officers from other 
jurisdictions. So they testified they could not communicate 
that way.
    The fire and EMS group said that they had only two 
trailers, one for the scene and a smaller one for the hospital. 
And then they had a comment that I did not quite follow. They 
said if they were contaminated they did not want to go to the 
hospital because they might contaminate other people. Well, a 
very serious concern to me is what are we going to be doing to 
protect our first responders and save their lives, both on the 
scene and later, with health problems.
    And my question is on equipment. Where are the critical 
needs? What is it you feel that you need for equipment and 
could you give us a listing from this city's perspective, 
knowing you will be helping all of your neighboring towns and 
villages--what are your biggest priorities for Stamford?
    Mayor Malloy. Congresswoman, I am going to attempt to 
answer that for you, but I do not have the specifics before me. 
But I will seek to have specifics--a list presented to you.
    Quite clearly, we are concerned about the hazmat area and 
the ability of police officers who may need to respond, given 
certain circumstances, to an incident whose needs are not being 
addressed as rapidly as the hazmat, fire units area. And quite 
clearly, the list that I will present you will address that 
issue. Police officers will play a vital role in responding, 
for instance, to the incident that presents itself in today's 
scenario.
    The math that was done before you a little while ago speaks 
of $4 billion distributed for local preparation, but $30 
million flowing to the State of Connecticut for redistribution. 
That is not the best flow level that I have ever seen reported 
when it comes to distributing assets for local preparation, 
albeit I understand we have a ways to go and I do not mean to 
be over critical, because we are working at this together. But 
there are great and tremendous needs.
    Let me point one thing out to you. although there are two 
trailers in Stamford, we actually built one locally because it 
was taking so long to get one distributed by the Federal 
Government through the State government. So the members of our 
fire department took an old backup piece of equipment and 
converted it to a decontamination unit, and that is the one 
that we, in today's exercise, would have responded to the 
hospital to help in their preparations, as opposed to the main 
unit which has now been distributed through the State I guess 
about 7 months ago, if I remember correctly. And one in New 
York--I mean in Greenwich. Greenwich and Stamford were chosen 
for some of the early distribution of that equipment because we 
are on the metro north line and in fact 222 trains going 
through Stamford on a daily basis.
    But I will otherwise ask our police chief and fire, EMS 
services to provide you a list of what we think is necessary.
    Mrs. Maloney. The mayor of New York, his office told me 
last week that the city of New York has received only $34 
million for homeland security. And one of the recommendations 
that Senator Rudman gave is that the grant should go directly 
to the localities and not to the States, since the response is 
from the locality, basically not from the State.
    So my question is your response to that. And also I would 
like to ask the mayor, Mayor Malloy, what funding did you, 
Mayor Malloy, request from the Federal Government for equipment 
and what level was funded? I assume you did make a request, 
correct?
    Mayor Malloy. Yes. The point you have raised is a very 
important one, even more critical in Connecticut. As has 
previously been said, we do not have county government for 
redistribution purposes. So we have a great fear about moneys 
not being fairly distributed to local jurisdictions, 
particularly jurisdictions that, relating to my earlier 
testimony, have a higher probability--not possibility, but 
higher probability--of attack or being the situs of such an 
incident. So we do have very serious concerns about that.
    There are, by last count, 244 municipalities in the United 
States, Dayton included, with a population of 100,000 or more, 
a relatively small number of such jurisdictions and if you want 
to use a 75,000 or a 50,000 definition of cities, you can still 
get to manageable numbers. We have other distribution formulas 
at work, the CDBG grant funds are distributed and recognized, a 
certain size community for direct distribution purposes. I 
would agree with what I believe the premise of the Congressman 
to be, that we probably can make some pretty good decisions on 
how to invest that money within the framework of State or 
national guidelines.
    With respect to the specifics of how much we have 
requested; for instance, we have requested overtime 
reimbursement and not received such funds. Not for training, 
but for higher levels of preparation and standby. And as a 
mayor who met the first train leaving New York City after train 
service was re-established on September 11, we had very great 
concerns about contamination being transported on that date. 
That grows out of the sarin gas attacks in Japan where more 
individuals died as a result of the transmittal than died as a 
direct result of the attack.
    Mrs. Maloney. My time is up. Thank you.
    Mr. Shays. Thank you. We are just going to go this first 
round and then when we come back afterwards, you will all be 
invited to make any other comments you would like to make.
    We are going to invite those who have been the spokespeople 
for each of those tabletops to respond, but we will also invite 
the general audience to respond as well.
    My colleagues may need to get back to Washington, but I 
will make sure that this hearing lasts until we cover that.
    Just real quick, why should I not want to see Fairfield 
County as part of the New York region, FEMA region?
    Mr. Craig. Well, administratively it is very difficult, if 
not impossible, to break up a State to give out grants and to 
train. The regional structure of the Federal Government is 
based on 10 regions. The Department of Homeland Security, while 
we will have a regional structure, has not decided what the 
size or look of that structure will be. So that will be coming 
out in the near future. But we do work with New York State and 
New York City on different events. As you hear earlier, 
Operation Yankee, which was run by FEMA Region I out of the 
Naval War College, was for the six States of New England. Early 
next year, that will include New York and New Jersey to be 
participants in that.
    Mr. Shays. If there is an event like what happened, we 
would logically see people from New York come to Stamford, 
correct? We are not going to wait for Boston.
    Mr. Craig. Absolutely.
    Mr. Shays. OK.
    Mr. Craig. And we would immediately deploy somebody to the 
State of Connecticut.
    Also, a specific event where we are working together is the 
Republican National Convention, Democratic National Convention. 
We have sent liaisons to New York for the RNC meetings and vice 
versa, Region II has sent them up to Boston for the DNC. So we 
have that kind of coordination between regions.
    Mr. Shays. When we did a tabletop in the Stratford-
Bridgeport area, about 3 plus years ago, we learned a lot from 
that. One of the things we learned, which is obvious to us now 
particularly since September 11, was the challenge of 
communicating within units and then clearly among units--fire 
to police and so on. But the biggest negative or surprise was 
the health department had no communication at all within and 
then really a difficult time communicating among the different 
units.
    This time around, the thing that I am caught most by 
surprise--and it is so obvious--and it relates to you, Mr. 
Bruhl--first congratulations on getting the business community 
to think about this and to be a leader in this, and others 
should follow. But you are not going to keep anyone in the 
office building if they want to be with their child. And 
particularly since September 11 when people were told to stay 
in the buildings and the towers when they probably should have 
left. There is probably going to be a lack of trust as well.
    Speak to me about the challenges you are encountering and 
what your biggest obstacles were in getting the business 
community to come together.
    Mr. Bruhl. Well, in terms of getting the business community 
to come together, there were no obstacles here in Fairfield 
County because so many of our companies had loss of life in New 
York, so many of our communities had loss of life. There was an 
obvious sense that we were in this together, it was real. But 
that is a different thing from what I know the question is, how 
did they actually get action as opposed to merely getting 
together to commiserate. This idea----
    Mr. Shays. I thought you were going to say first you have a 
good mayor that took charge. [Laughter.]
    Mr. Bruhl. We happen to be blessed with a brilliant mayor--
[laughter]--as we are blessed with a brilliant Representative 
as well. And as you know, I am a classic case of the 
understating.
    However, the issue of the employee as a person, the 
employee as a family member, not as a unit on a chart that gets 
managed is really where our companies have a lot of experience. 
And that is why when we say they are going home to their 
children, we are not saying these are thoughtless people, 
unable to understand that the first responders are trying to do 
the best they can. I am saying that my daughter is not going to 
be left on a street corner. And that issue can only yield to 
better planning where we all work on this together. Second, 
some form of evacuation planning. We heard some very good 
examples from the uniformed folks about corridors to move 
people in and out. But where is the public sector in doing 
that--I am sorry, the private sector in understanding that so 
we can communicate in advance of an event, not after an event 
when rumor and fear kicks in. And then finally, real 
communications, not the reliance on seeing press briefings. We 
need real time access to real hard information that people can 
make determinations on and therefore know is a plume coming our 
way or not--those kinds of things. Not to supersede the 
judgment of the public sector, but to tamp down the fear factor 
where people unilaterally take things into their hands.
    Mr. Shays. No board of education folks in the exercise 
today, board of finance, but not board of ed, correct?
    Mr. Bruhl. I believe that is correct.
    Mr. Shays. I am struck with the fact that if you knew 
beforehand that the various board of eds had a very sound 
program that could make you feel a little more comfortable--but 
obviously you are working and they are then sent home and who 
is at home to take care of them. So it raises some interesting 
points.
    Mr. Bruhl. Yes, sir. The mayor of Stamford pointed out that 
in Stamford, the decision was made that children are not 
dismissed in the middle of the day and yet in many other school 
districts, and in fact in my own, there was a different 
building-by-building decision with the principal. Some form of 
cooperative understanding of how we are going to keep these 
children until called for is a very simple thing for a regional 
community to address. But it needs to be facilitated, I think, 
and encouraged, not just by the State but by the Federal 
Government in its overall protocol, so we do not add 
unnecessary pressures on parents to then lead them to act in a 
way that complicates everyone's lives.
    Mr. Shays. Real Briefly, Mr. Petri.
    Mr. Petri. Yes, Mr. Chairman, I would just like to address 
the committee concerning a comment previously made about Region 
I and whether or not it should be part of New York or New York 
part of us.
    I would like for you to know that for the past several 
months, Connecticut has been engaged in spear heading a 
collaborative effort taking place with the city of New York, 
State of New York and with New Jersey, as it pertains to 
planning for evacuation purposes. The level of effort being put 
into this has been substantial as traffic management is of 
critical importance. Both New York City, New York State and New 
Jersey have opened their doors in terms of cooperation and we 
are taking advantage of that cooperation by working together to 
bring about a coordinated and integrated tri-State plan for 
this region.
    Mr. Shays. We are going to have to break in 2 minutes here, 
but I did want to talk about standards and density, but I am 
going to wait until the afternoon. But I do just want to have 
you respond to this, mayor. No large cities in Connecticut, no 
county governments, so is your sense that--and you have got a 
Federal Government that is going to set standards for density 
and so on ultimately I think. Do you think we can make the 
State system work or do you still, as mayor, want to see direct 
pass-throughs?
    Mayor Malloy. I am concerned that the State's approach in 
distributing assets is not the right one, that an across-the-
board formula-driven approach----
    Mr. Shays. Just by population.
    Mayor Malloy. Yes, just by population. And I think that 
there is a greater willingness in regions to recognize lead 
organizations than the State is recognizing. I can assure you 
that, for instance, Darien and New Canaan, if they had that 
incident that is presenting itself in today's scenario, would 
expect Stamford to respond a lot quicker than anyone out of 
Hartford is going to respond. And although I believe the FBI 
agent's discussion today about how quickly they would respond 
is what he intends to do, I doubt that the FBI is going to 
respond from New Haven to Stamford in 20 minutes.
    Mr. Shays. What we are going to do right now is we are 
going to be at recess and we will come back afterwards.
    We do thank you all for letting us interrupt your tabletop 
and we will invite others to testify afterwards as well. Thank 
you, we are at recess.
    [Recess.]
    Mr. Shays. I would like to call this hearing back to order 
and what we are going to do is we are going to first hear from 
elected officials--first selectmen, mayors, State 
representatives--and then we are going to have an individual 
from each of the tables explain, make comments on what they 
want us to know, what they have learned, and then we will open 
this to anyone who has general comments.
    I will first start in Greenwich and just go up the State 
here. So Mr. Bergstresser, you are on. If you would state your 
name and your title, please.

  STATEMENT OF RICHARD BERGSTRESSER, FIRST SELECTMAN, TOWN OF 
                         GREENWICH, CT

    Mr. Bergstresser. Richard Bergstresser, first selectman for 
the town of Greenwich.
    I just wanted to emphasize one point, and that is about the 
allocation of funding. And I second some of the comments that--
I have had conversation with Andy Spado in Westchester County--
it is vital that the funding be done on some sort of a priority 
basis and with some focus on risk assessment because we sit 
just over the State line from Westchester County and of course 
New York City, we feel, has unfortunately demonstrated they are 
a primary target.
    We need to focus not only on the funding--I guess I will 
expand my comments to also say in terms of incident management, 
to really get a focus on regional control. If an incident 
happens in New York City, one of the things we saw was an 
outpouring from our emergency services people and some people 
just going down--getting on the train and going down to New 
York City. That obviously was not good staffing. So we need to 
really organize ourselves so that we have a turnout on a 
controlled basis.
    Thank you very much for the opportunity.
    Mr. Shays. Thank you, Dick, I appreciate it a lot.
    Going up, we will go to New Canaan. I just want the record 
to note in my 16 years at a hearing, this is the first hearing 
I have ever conducted where a witness is eating at the table. 
[Laughter.]
    I want you to know that that was First Selectman Bond. Mr. 
Bond, you are on.

   STATEMENT OF RICHARD BOND, FIRST SELECTMAN, NEW CANAAN, CT

    Mr. Bond. Jealousy will get you nowhere.
    Mr. Shays. Would you state your name and title, please?
    Mr. Bond. My name is Richard Bond, I am the first 
selectman, New Canaan, CT. Gentlemen, thank you for giving us 
this opportunity.
    The concern I have is probably a concern we all have, the 
timing of the whole incident. With the transportation situation 
as it is in New Canaan, whether it is I-95 in New Canaan or 
Fairfield County, I-95, Route 1 and Merritt Parkway is--today, 
given certain hours of the day, particularly commuting hours, 
as Mr. Malloy said, probably from 6:30 a.m., until 9 and then 
around 3 to 6 p.m., the highways are absolutely jammed. The 
ability to get additional support in, whether it is individuals 
or equipment, and to get people out is almost impossible.
    And I think we are all aware of that and we know that the 
State is trying to address that, but the timing in which they 
will be able to address it is years. This is a concern to me 
for Fairfield County, not as much for New Canaan because we are 
not quite faced with the same problems. But if we were to 
supply help to Stamford or Westport, it would be very difficult 
for us to get police, fire, ambulances down there to help.
    We do not know the answer to it, but the answer, as is 
presented today, is a long, long term situation. And some of 
the solutions are not too favorable. But whatever the solution 
is, it has to be something other than on these major roads at 
this time.
    Mr. Shays. Was it your sense that there was not as much 
intensity in this tabletop as would have been in the real 
world, given this kind of challenge that you are talking about?
    Mr. Bond. Yes, sir.
    Mr. Shays. Any other comment?
    Mr. Bond. No. May I go back to eating? [Laughter.]
    Mr. Shays. We will go with you. Diane, if you will give 
your title.

    STATEMENT OF DIANE FARRELL, FIRST SELECTWOMAN, TOWN OF 
                          WESTPORT, CT

    Ms. Farrell. First of all--and I will not belabor, Chris, 
because I know you do not appreciate all the accolades, but I 
say thank you, thank you, thank you for all that you are doing, 
because it has been terrific.
    Second thing is, in response to the exercises, I think that 
today was very good. We have done a number of tabletop 
exercises in Westport, we have done a number of cooperative 
exercises with metro north and with the city of Bridgeport and 
each time, as the chief elected official and therefore, a non-
emergency response professional, I remain very, very impressed 
with the level of professionalism that we have in lower 
Fairfield County, and I think today was another illustration in 
point.
    However, you can never practice enough and you can never 
anticipate every subtlety or nuance that may occur during a 
real time event, so the more we do this and the more we talk to 
each other, the better. So I think today was a success from 
that standpoint.
    I did want to respond to a couple of the statements/
comments that were made at the hearing prior to our going to 
back to phase 3 and I do want to thank Congressman Turner for 
coming. And I wanted to add something, you had asked the 
question about standards and I certainly support the idea that 
we try to work with the two primary organizations--police and 
fire--as it relates to standards by a municipality.
    One that is going to be very difficult to tackle and one 
that you never think about is how we handle the issue of 
smallpox inoculations. And that is something that we have 
wrestled with in our municipalities. When we were originally 
informed that we needed to begin this rolling inoculation, 
first with our first responders and then anticipating a mass 
inoculation with the population, a number of very critical 
questions came up as it relates to whether or not you make this 
a condition of employment, for first responders for example; 
whether or not you suffer certain liabilities because there 
obviously are certain risks to the smallpox inoculation.
    And you know, it comes down to the practical level. Do you 
literally say as a police chief, well, you do not have to be 
inoculated, but you do, and therefore when something happens, 
the person who agreed to be inoculated is suddenly placed in a 
greater level of danger than say the individual who chose not 
to. So it is a real tricky issue, it is a liability issue and I 
do not think it is necessarily going to be answered at even the 
State level, let alone at the local level. So it is something 
to think about when you are working with those organizations.
    With regard to money, I have to agree with Mayor Malloy 
that we are beginning to see funds coming from the Federal 
Government and we are very grateful for that. Primarily they 
are coming through the States and, as has already been 
mentioned, Connecticut is a little bit complicated because we 
do not have a regional government.
    I do have to say that distributing on a population basis to 
me makes absolutely no sense. It has to be a qualitative 
decision on the basis of threat level. And the individuals 
sitting here before you this afternoon are all at least within 
50 miles of New York City, if not closer. And given that fact 
that that is the de facto target, it would be silly to just 
look at us on the basis of population and not as a threat 
assessment.
    The other problem with money is that while we are grateful 
for it, I have observed frustration both at the State and in 
our own level in terms of the amount of time that we are 
allowed to apply. And I will give you a perfect case in point. 
We were invited by the Department of Justice to apply for an 
interoperability communications grant and it was a significant 
sum, I want to say $78 million to be distributed across the 50 
States, and theoretically municipalities were invited to apply. 
We were given 30 days to respond to a fairly lengthy 
application and the Federal Government put together a panel and 
only had 30 days to make the decision. So that is a total of 60 
days to decide upon tens of millions of dollars and how best 
they could be spent. And given the fact that each of us are 
trying to squeeze everything we can out of every dollar that we 
are given, it just does not seem the best process. And I do 
understand the use it or lose it aspect of things and I 
understand that we were coming to the end of the Federal budget 
year, but I would like to think that if we are given that kind 
of money that we can seriously look at our taxpayers and say we 
are spending it as efficiently as possible because every dollar 
is so valuable. So that is something that has been a bit 
frustrating.
    The final comment I will have is that you heard from Don 
Petri today from the Office of Homeland Security for 
Connecticut, and Don is wearing many hats. One is that he has 
been tasked with looking at evacuation planning for the State 
of Connecticut. And as he mentioned, he is working with New 
York and New Jersey to come together--clearly this has to be a 
tri-State effort. If we just looked at Connecticut, it would be 
a very naive view and he understands that. It is not easy to 
get Governors to all agree, as evidenced by the power line 
issue right now between New York and Connecticut.
    And a thought that I had that perhaps might help and might 
help us to not reinvent the wheel is whether or not this could 
be looked at as a Federal challenge; again, considering that we 
are talking about New York as the epicenter here. And perhaps 
the Department of the Army or another Federal agency could be 
looking at this, which would sort of take it out of the local 
jurisdictions; i.e., the States, and working it through on a 
logistics basis. I mean I am anecdotally reminded from that 
famous scene in Patton where George C. Scott is standing on a 
jeep and directing troops. And it occurs to me--we need George 
C. Scott in Connecticut I guess--but it occurs to me that 
perhaps there is a Federal agency like the Department of the 
Army, the Army Corps or through the National Guard where this 
could really be treated as a Federal response to what is a tri-
State problem.
    So those were my thoughts for the day and once again, I do 
thank you both for your time and attention. This is obviously a 
very critical issue.
    Mr. Shays. Thank you very much.
    Next we will go to Ms. Powers. If you would state your name 
and title.

     STATEMENT OF CLAUDIA DOLLY POWERS, CONNECTICUT STATE 
                         REPRESENTATIVE

    Ms. Powers. That is right. I am State Representative 
Claudia Dolly Powers, I am the deputy minority leader in the 
House.
    I am going to make some recommendations and ask some 
questions that maybe need to be looked into a little bit at the 
Federal level as opposed to the State level, because we are 
limited. We like to talk about working together, but we all 
know State lines can stop discussions even though they should 
not.
    The question I asked in the exercise about the privacy of 
medical information. Perhaps a very small amendment could 
remedy that situation whereby in an emergency that has been 
declared by a Governor or the President, that particular issue 
in terms of locating a patient in a hospital could be 
addressed.
    Next, this particular issue I have heard at other 
discussions that we have had on the local and State level which 
is, once we have had an incident, localities need help with 
replacement of equipment that they have used, because as we 
noted in several of the discussions, masks are only good for 20 
minutes and the filter, replacement filter is only good for 20 
minutes and then you have to throw the whole thing away because 
it has been contaminated. Same thing with suits and boots and 
gloves.
    Every group that spoke in this tabletop exercise mentioned 
communications, some more than once and in some level of 
frustration. I would hope that perhaps we could look at 
something in terms of newer, faster technology, perhaps 
something in terms of an emergency that has been declared by a 
Governor or the President, taking over a frequency for a 
specific period of time to--aside from the 800 megahertz which 
we are in the process of implementing, but as we all know, it 
is lengthy and expensive.
    Another issue that actually has been brought to me by a 
number of constituents which is the cell phone network, which 
we saw fail completely on September 11, it failed completely on 
the blackout. And whether or not there is something that we can 
do at the Federal level in terms of requiring some kind of a 
backup system or relaying to--I am not an engineer so I do not 
know the right terminology to use, but the total frustration of 
individuals who have become dependent on their cell phones and 
at the very instant of an emergency, they are completely cutoff 
and then they are standing in the old fashioned line to get to 
a land line, you know, in a phone booth on the street.
    Mr. Shays. Let me just interrupt you. I just want to make 
you all feel that if you need to get on your way, because you 
told me you needed to get on your way. We are going to kind of 
just go through and hear and not ask a lot of questions. Thank 
you very much.
    Ms. Powers. Next, there was discussion about using 
helicopters to bring in personnel, emergency personnel, 
specialized personnel and pharmaceuticals on an emergency 
basis. My question was who controls that? Is that the FAA, is 
that the nearest airport, is that the State police? Again, that 
may be a State/Federal issue that maybe Homeland Security on 
the national level could set up a standardized system so people 
would know where to turn for that particular issue.
    Another issue that we have been dealing with on the State 
level, and it ties into the liability issue, which is if you 
have--and it is especially pertinent to here because we are so 
close to the New York line--if in the event of an emergency, 
you call people in from Westchester County, identity in terms 
of individuals. We have passed bills to mitigate, you know, the 
good samaritan issue, someone comes in in an emergency to help, 
whether they are an engineer, whether they are a doctor, a 
nurse, something--you know, whether there is someone who runs a 
company that actually mitigates spills and helps out in an 
emergency, the liability issues. The question has been raised 
how in the middle of an emergency do you identify that person 
absolutely. Perhaps there would be some system of a smart card 
ID for those people who would be available in terms of 
emergencies.
    I am glad you are all looking at standards in terms of 
equipment and training. I think a Federal minimum for--maybe do 
not tie it right away to the funding because people get 
hysterical when you do that, but setting up Federal minimums in 
terms of the level of equipment and training, I think it would 
be helpful because it gives everyone at least a starting point 
that is, you know, community-wide, statewide, nationwide.
    And on a lighter note, I, as a Navy kid, was given the 
smallpox vaccination three times and I am here and I am fine. 
So if you are worried about the smallpox, I have even 
volunteered to go have it done again.
    Thank you very much.
    Mr. Shays. Thank you very much. Representative Duff.

   STATEMENT OF BOB DUFF, CONNECTICUT STATE REPRESENTATIVE, 
                          NORWALK, CT

    Mr. Duff. Thank you. My name is Bob Duff, I am a State 
Representative from Norwalk, and I just want to thank you 
again, Congressman, and thank you, Congressman Turner, for 
coming and thank you for letting us be both observers and 
participants today.
    Frankly, I found this day to be very sobering and I think 
that we have come a long way in our 2 years since September 11 
but obviously more needs to be done. What I am walking away 
with is I am very thankful that we have such professional 
people who are helping us and protecting us and they have a 
tremendous amount of skill, as we saw today. I mean they know 
the agencies and different types of chemicals and different 
types of things that are needed to go through this maze and I 
just want to compliment them. And just to make sure that we 
make sure that they continue to have the tools that they need 
to better protect us.
    The way I see this is I think this is a multi-pronged 
approach. We need communication, we need people to be prepared 
and we need coordination. I think we are on our way to that, 
but I think the blackout was a very good rehearsal toward 
something that could happen that could be disastrous.
    One of the things I think we need to do is make sure we 
keep the business community involved. They have to take steps 
obviously because we have our reliance on our electrical grid, 
and as we saw during the blackout, I had people who I know who 
had no idea really what was going on. I think a lot of us 
thought that there was terrorism in the beginning, but did not 
know what was going on because they missed one of the 
essentials. And this may sound over-simplistic, but one of the 
things I think some of our businesses need is they need radios 
with batteries. I went to my car and drove home so I could 
listen to the radio to hear what was going on. And there were 
those in office buildings who had no lights and nobody had any 
idea what was going on because, as the mayor said, one of the 
best ways of communication was the radio at that point.
    The other concern I have is that we had Federal and State 
officials testifying about money given and trickling down to 
municipalities but then you had the mayors and first selectmen 
who said that they have not seen it or it was very much of a 
spend it or lose it in a very quick amount of time. So I think 
we need to make sure we keep our cooperation together and that 
we work well together and make sure that the money that does 
come down comes down in the proper channels.
    Again, I just wanted to thank you for your leadership and 
for this continuing dialog because I think this is the only way 
we can improve the safety of our citizens. Thank you very much.
    Mr. Shays. Thank you, Representative Duff. Mayor.
    Mayor Malloy. I just wanted to reflect a little bit 
further, Chris, on the issue that was raised in our earlier 
discussions. And that is this top down driven allocation of 
resources. I was reflecting in the afternoon session and I 
believe that Members of Congress need to understand that at 
least within our region, there is a built-in political 
incentive to getting this done right on the local level. And as 
much as Congressmen or Senators, from time to time, may worry 
about whether Federal dollars are going to be used for some 
other purpose, in this particular area, I can honestly look you 
straight in the eye and say every cent that has come to the 
community with respect to homeland defense has been spent 
appropriately and in the area that was designed. I believe that 
the Fire Department, either Chief McGrath or someone else, will 
speak as to what some of the things that we have identified we 
would add if we could and if direct allocations were made.
    The other thing I wanted to assure----
    Mr. Shays. Let me just interrupt you to say that is one 
vehicle we still have because we have the fire grant.
    Mayor Malloy. Right.
    Mr. Shays. That comes direct to local communities.
    Mayor Malloy. The fire grant does. And interestingly 
enough, the fire grant predated September 11, but the dollars 
have been useful in our preparation for a post-September 11 
world, although that clearly was not the intent at the time 
that the fire legislation was passed. But even the way we look 
at vehicles and what we want on vehicles has been impacted I 
think by September 11.
    The other point I wanted to make is that there may from 
time to time be a disbelief on the State level--or a belief on 
the State level of the inability of local communities to work 
together on a regional basis in a State which does not have a 
regional form of government. And I think what you saw 
demonstrated today by the first selectmen and myself and the 
mayor of Norwalk is this willingness to work these issues out 
between ourselves, to identify who is a more likely victim of a 
particular type of activity, to input as to where resources 
should be housed so that they can get most quickly to an event. 
We are prepared to work together and this is one of those 
issues that just simply cuts across, and you should feel good 
about that.
    Mr. Shays. Thank you very much. Mr. Bond, do you have any 
closing comment you would like to make?
    Mr. Bond. No, I agree with Mr. Malloy that the ability to 
work together is absolutely there. No one has any other thing 
in mind than to help each other if and when needed, not a 
problem.
    Mr. Shays. That is a nice way to close. Gentlemen, thank 
you so very much. And again, mayor, thank you.
    We are now going to invite five table representatives--law 
enforcement, business, city administration, firefighters, 
emergency medical services and public health to come forward. I 
hope we assigned someone from each table.
    While one is testifying, if you all would just fill out 
your name and your address, title and so on. I count four, we 
had five, who is missing, what table is not represented here?
    Voice. Medical community.
    Mr. Shays. Medical community. Is there anyone from--he is 
out there. So we have the medical community here, public 
health--you know it would have been the mayors of the city. If 
you are going to still be here, mayor, maybe we should have you 
just----
    Mayor Malloy. I thought you might have gotten tired of me.
    Mr. Shays. No, we have not gotten tired of you. I enjoy 
competence.
    The sound is a little dead in the back here so I am going 
to ask all of us to speak much closer into these mics.
    OK, why do we not just start. First, why do we not begin 
with law enforcement--name, title and so on.

   STATEMENT OF THOMAS WUENNEMANN, CAPTAIN, STAMFORD POLICE 
                           DEPARTMENT

    Captain Wuennemann. My name is Thomas Wuennemann, I am a 
captain with the Stamford Police Department.
    We thought today was a great start, but we also realize 
that our officers need a lot more training, and we also would 
like to see a practical drill for the front line officers, 
because they are the ones that are going to make the critical 
decisions early on that is going to shape which way this goes.
    A big thing for law enforcement is the interoperability 
communications. The fire department is way ahead of us on this. 
We are well behind on that and that is something that greatly 
concerns us.
    As mentioned before, equipment is starting to come in, but 
what we are concerned about is the upkeep of the equipment. A 
lot of this stuff has filters and the maintenance type money to 
keep it going. That is a big issue for us because a lot of this 
stuff in 2 years, or even annually, needs to be updated.
    Those are our main things, but the big thing for us is 
training.
    Mr. Shays. Thank you very much. We will go to fire.

 STATEMENT OF ROBERT J. MCGRATH, FIRE CHIEF, CITY OF STAMFORD, 
                               CT

    Chief McGrath. Yes. My name is Robert McGrath, I am the 
fire chief, city of Stamford.
    Reflecting on training, I agree with Captain Wuennemann, we 
are doing most of our training in-house. It is becoming a 
burden on our taxpayers here in Stamford. While we are doing a 
regional response, we feel as though that some of the money 
should come from a regional aspect to train people if we are 
going to respond to their towns and basically take over and 
mitigate situations there.
    Referring to the Fire Act you mentioned earlier, it seems a 
little bit unfair as to where that money is being allocated. 
The larger municipalities have to come up with a 30 percent 
match, whereas the smaller ones only have to come up with a 10 
percent match. Cities like Philadelphia have turned money back 
because they do not have the 30 percent match. And here in 
Stamford, we have seen very little come this way, while a lot 
of the other smaller municipalities upstate have been getting a 
lot more. We feel as though we would like to see more come this 
way toward training, equipment and so forth.
    Thank you.
    Mr. Shays. I am going to react by saying I wonder if it is 
a perception that they have more or whether they do have more, 
and it would be something we can check on. But your point is 
though you actually need a higher match in Stamford than you 
would need somewhere else here in the State?
    Chief McGrath. In the State of Connecticut. The 
municipalities I believe with 100,000--or 50,000 and less only 
have to come up with 10 percent and those over 50,000 I believe 
have to come up with a 30 percent match.
    So some of the cities I have spoke to have not even applied 
for it because they could not come up with that match.
    Mr. Shays. Is that for Federal dollars?
    Chief McGrath. That is for the fire grant, sir.
    Mr. Shays. The main fire grant, OK. That is very 
interesting.
    I tell people I learn lots of new things every day here.
    Shall we go to the public health?

       STATEMENT OF ED MCCORMACK, STAMFORD HEALTH SYSTEM

    Mr. McCormack. Ed McCormack from Stamford Health System, I 
was participating at the table from the medical community. So I 
do not speak particularly for public health.
    Mr. Shays. OK, but just as you see what happened in your 
table, where were the biggest challenges?
    Mr. McCormack. I would say they involve communication--not 
surprising. Our issue from the hospital's perspective is 
through providing decontamination immediately, recognition of 
the need and providing the decontamination. We have a lot of 
equipment that has been purchased toward that end, we are 
looking to do training--it is expensive and will pose some 
challenges--but the plan we are putting in place calls for our 
ability to decontaminate initially. So we still rely upon the 
fire department to help with that.
    Mr. Shays. We did not have the opportunity to interact with 
Greenwich and Norwalk, correct, in this exercise?
    Mr McCormack. They were not represented at the table.
    Mr. Shays. Right. So tell me how you do interact.
    Mr. McCormack. Normally what happens, once an emergency is 
activated, much like the city's model, we have an incident 
command structure within the hospital, we set up incident 
command and EOC and we communicate with the city's emergency 
operations center of course and we usually reach out, as part 
of that process, to the neighboring hospitals. There is also a 
CMED communication system which immediately tends to poll the 
hospitals as to their bed availability and relay that 
information between the hospitals. I am sure there is also 
informal communication that goes on, but from a formal 
structure, it is through the EOC to contact the surrounding 
hospitals, advise them of where we stand in terms of a certain 
event and exchange information, you know, through that 
structure.
    We are aware of the fact that both neighboring hospitals 
are probably somewhere in the same process that we are in, of 
revisiting our emergency management planning, updating it, 
implementing some of the newer concepts. Certainly for Stamford 
Hospital, that is what we have been engaged in for at least a 
2-year period, actually pursuing that. And we are in the 
process right now of putting our plan in place, which mirrors 
the process that the fire and police departments use to do 
command and control and it allows us to probably better manage 
our resources and direct them to where they are needed.
    Some of our issues that were identified through this 
tabletop exercise are the continuing need for training, which 
we have a plan to accomplish; some of the issues with locking 
down the facility, securing it in the event of a terrorist type 
of event. There are issues with transportation, whether it is 
bringing supplies in or moving patients out, both situations 
would probably occur in this scenario. There is limitation to 
ground resources from the demands that are put on the local 
emergency services and there are limitations to air resources 
due to what access the hospital has to a helicopter landing 
site. Currently we use corporate sites which are off campus and 
I am sure that in the bigger picture of planning for the 
hospital, there would be a need to somehow be able to access 
air resources closer to the facility. That came up with 
September 11 and it came up again in the recent situation where 
we were trying to bring in parts that were critical to the 
infrastructure of the hospital in the power outage, and they 
had to be transported by ground.
    So issues like that came up again in today's exercise. 
Those would be the main ones. And I just wanted to say that I 
appreciate, speaking for the hospital, the opportunity to 
participate in this exercise and that it was very helpful.
    Mr. Shays. Thank you. I just want to pursue one little 
part.
    I just want to be clear as to what type of communications 
the hospitals have.
    Mr. McCormack. Internally we have a pretty good state of 
affairs, we have probably 40 walkie talkie type devices that 
can be distributed throughout the facility. We have phones that 
are working without power, we have a couple of other 
communication systems within the hospital. So that is 
relatively strong.
    We communicate externally through cellular means, through--
we have a dedicated network, a radio system which is available 
through the CMED network which is probably the primary 
communication line and there are additional resources being 
brought to bear such as a satellite phone system, which is to 
be installed through the southern Connecticut regional group 
that has been meeting regularly to work on some of these 
issues.
    Mr. Shays. Mayor.
    Mayor Malloy. Congressman, I think your question can also 
be answered by there is a regional CMED organization that helps 
distribute--in the time of a crisis or mass crisis, would help 
distribute the traffic flow between the hospitals that are 
nearest to the event, in this case, for our discussion 
purposes, it likely would have been Greenwich, Norwalk and 
Bridgeport, perhaps Danbury. There is an organization who would 
then help coordinate that transportation.
    Mr. Shays. Great, thank you. That is very helpful.
    Business community. Thank you.

  STATEMENT OF DAN ARENOVSKI, ASSOCIATE DIRECTOR OF SECURITY, 
                         PURDUE PHARMA

    Mr. Arenovski. Dan Arenovski, associate director of 
security for Purdue Pharma.
    The exercise today was definitely needed and we thank you 
for including the business community. Funding for additional 
exercises, tabletop and other outside scenarios, is definitely 
needed and we would like to see the continued inclusion of the 
business community in that.
    We identified at our table today one area that was probably 
most important and had the most significant impact on how we in 
the private sector effect our crisis management plans or 
disaster recovery and most importantly our business continuity 
plans, and that was communications.
    With our 15-story high rises here in Stamford, you know, we 
have an enormous amount of people that want to evacuate and get 
home. We do not know--we were looking for that type of 
information conduit, either from local police, fire or other 
State and Federal Governments to be able to disseminate that 
information either to the directors of security or the business 
leaders, to let us know what we need to do in order to help the 
city and to be able to facilitate business continuity. That 
type of conduit, that information conduit that we have either 
available to us would be either through Web sites or e-mail, 
telecommunications, sat phones and what-not, just the 
establishment of a couple of information clearinghouses that we 
can go to to get that information and stop bothering the 911 
centers.
    That was the largest area that we looked at today as a 
major problem. The sooner we gather that information, the 
sooner we were able to direct our people to go in the right 
direction or keep them in our facilities, especially with 
today's scenario.
    That is all.
    Mr. Shays. Mayor, did you want to make a comment?
    Mayor Malloy. Yes, the last thing I would say as far as our 
group, we were very grateful that the private sector 
participated today. I think we learned a lot of things and 
including what we need to bone up on with respect to our 
communications with that sector, as well as the education 
operations. For instance, we probably should have had 
superintendents of schools here today. We did not do that and 
that was perhaps a weakness on our part. So we certainly 
learned a couple of lessons, not the least of which, those two 
come to mind and are important. And we will have to build 
better ways to communicate with those outside agencies, there 
is no doubt about it.
    Mr. Shays. I just react, it would not have occurred to me 
to do that, to have the board of education here, and yet it is 
like hello. Parents want to be with their kids and want to make 
sure they are well.
    I do not want this to seem a bit negative here, but I want 
to make sure the committee is doing its work in regard to this 
particular exercise, and I will react to--I have seen a few, 
and I thought this was very good, but I wondered if there was 
the intensity level that needed to be, and I am thinking that 
it could have been--they did one radio, TV station, I could 
have seen them jump in with three or four, one trying to trump 
the other, and instead of you learning your information by the 
bullets of how many were in the hospital, you learn it from the 
TV saying, you know, there are 600 and then you find out there 
is a correction, it is only 300. And confusing you all a little 
bit in the beginning.
    I am just wondering if you felt that the intensity level--
first, did you think that the event was realistic; in other 
words, that that could happen. And I will say I thought it was, 
but I would be curious to know if you did.
    And second, do you think that we could make this a more 
intense effort, is there value in doing that? Intense by a 
little more pressure on you.
    Chief McGrath. I think that if you changed the area where 
this happened to perhaps a more rural setting that does not 
have the equipment and the first responders to be able to get 
to the situation in a timely fashion and have to rely more and 
more on mutual aid, that may be able to be more realistic as to 
what probably could happen.
    Mr. Shays. Other thoughts?
    Mr. Arenovski. I think if we rely strictly on the media to 
disseminate the information coming out of our local government, 
that there is the opportunity for misinterpretation. That we 
would look for the offices of our local and elected officials 
to be able to come forward and release those statements and 
mandate that the media disseminate that information verbatim so 
that there is a representation of strong government and that we 
understand that this is coming directly from our people, the 
people in the official capacity.
    Mr. Shays. I am just wondering what is in the real world 
though. It is in the real world though you are going to have 
your TV sets on hearing this, or are you going to be able--and 
then you are going to have better information come to you 
privately and you are going to have to deal with it. I wondered 
if your sector was challenged enough because it seemed to me 
you should have been forced to have to deal with rumors and 
innuendo and a whole host of other things.
    Mayor Malloy. I think those are valid points, Congressman, 
but it takes me back to September 11 and in the discussion at 
my table, when we opened the EOC at the Stamford Government 
Center on September 11, 2001, we did so assuming we were a 
target. We had two of the major non-New York traders, GE 
Capital at the time, and USB Warburg at the time, in our 
community. So for all of our planning purposes, we made that 
assumption. So we had a real test that day and we had to 
respond to that. I mean as we watched the TV, there could be 
20,000 people injured--dead or injured--at the World Trade 
Center.
    We started making and laying plans as to how we would 
respond, meet the trains, for instance, and all the rest of it. 
So we have had that.
    I think you are in a community in which we have drilled 
this. I mean tomorrow, we will probably have our first 
meeting--depending on weather reports--have our first meeting 
at 1 tomorrow in preparation of a hurricane.
    Mr. Shays. I guess what I am asking is a little more subtle 
because what you are saying is you think you are capable to 
deal with it. But in the real world, would you have had to turn 
on the TV and find that there was this outrageous rumor on TV 
which then, you as the command post for information, would have 
to figure out how do you correct that information and how 
quickly can you, because that incorrect--you know, for 
instance, the plume is three times larger than we think and it 
is headed right downtown Stamford and the entire building was 
destroyed. And you know the building was not destroyed, you 
know the plume was not as bad, but in the meantime, all your 
workers are headed out of their community.
    So I am asking, did you feel you were faced with 
misinformation during the course of the day, and should you 
have been.
    Mayor Malloy. It might have been valuable. You know, I am 
certainly familiar with other exercises such as the virus 
exercises that have occurred elsewhere, and they present very 
different situations than the one today. The one today is much 
more likely to happen, the virus scenario or the scenarios that 
could be presented might be more challenging.
    Mr. Shays. Well, the event is more likely, the question is 
maybe I am----
    Mayor Malloy. No, no, I am agreeing with you. I think it 
would present substantially more challenges and we probably 
would learn how to handle those challenges, or at least test 
our ability to handle those challenges in a more meaningful 
way.
    Mr. Shays. I just want to make sure for the record--I am 
not talking about an outrageous example, I am talking about 
just total misinformation.
    Mayor Malloy. Yes.
    Mr. Turner. Let me jump in, Mr. Chairman, to give you an 
example.
    Your scenario is not that outrageous. On September 11, in 
Dayton, OH, at 3 p.m., on the major news channel of our market, 
they go live with the report that they have just heard from our 
emergency responders that an airplane has been crashed into the 
Veterans Administration Hospital in Dayton, OH.
    I walk out of the City Hall, I look to the direction of the 
city where the Veterans Hospital is and there is a tremendous 
amount of smoke rising from the community. We had all just 
heard in the entire city a huge boom, just right before the 
media made this report.
    What had happened was one of the planes that was chasing 
the President's detail, the jets, had gone supersonic over the 
city, we had a sonic boom and a house fire occurred near the 
Veterans Affairs Hospital.
    Mr. Shays. Wow.
    Mr. Turner. And so we were dealing with suddenly trying to 
come up to speed with what really is going on over there and do 
we really just have a fire.
    Now we were blessed with the fact that we were not at the 
site, so all of our communication systems worked, we were able 
to work with our police department, our fire department, but we 
had a community where we had to play catch up. And that is an 
outrageous rumor, one that did not prove to be the case, and 
that you would face because of the level of hysteria that you 
have when something real is happening.
    Mr. Shays. Any other comment about today before we invite 
comments from the floor?
    Captain Wuennemann. I just have one. I think in a real time 
exercise, I think the transportation issue in this area of the 
State is something that cannot be overlooked. We are talking 
about getting assets here in several hours where you cannot 
make that on a normal commute day. I think when you have a real 
event, that is something that we kind of misled ourselves a 
little bit today.
    Mr. Shays. I would ask one more thing about the--and thank 
you for that point. I am not quite sure if the business 
community was recording events or helping to shape events. 
Because you mentioned basically your employees are going to 
leave whether or not you want them to. Are you saying that by 
providing some quality information, some may have decided to 
leave and some may have decided to go in a different direction? 
How do you think you can shape the conduct of your employees?
    Mr. Arenovski. I think we can certainly shape the amount of 
panic that would come out of a scenario like this, being that 
business and industry is so close to where today's scenario 
took place. By disseminating more timely, up to date 
information regarding the incident, we can probably quell some 
of that panic and either keep people where they need to stay--
now we are not going to stop everyone, we know that. We know we 
are going to have the factor of families, but the timely 
information and then having us within the facilities being able 
to disseminate that through our employees, either through our 
internal Web sites or PA systems or what-not, will quell some 
of that panic and it will be better, more inclusive 
information.
    Mr. Shays. Thank you very much. Any other comments?
    [No response.]
    Mr. Shays. Gentlemen, thank you so very much.
    Let me ask by a show of hands, it may be zero or it may be 
a few, how many people would like to make a comment before we 
adjourn this hearing?
    [Show of hands.]
    Mr. Shays. I see one, two, three, four--Chris, did you want 
to make a comment as well?
    Mr. Bruhl. I will followup at the end.
    Mr. Shays. OK, so why don't we do this, all of you come 
forward and I am going to make an assumption. I am more than 
happy to have anyone who would like to, but I need to know now 
not before we adjourn, just so we have a sense of time here. Is 
there anyone else that would like to come to the table?
    So what I am going to ask you each to do is write your 
names and addresses and titles if you have them, if you do not 
have a card, and for the record just state your name and title.

       STATEMENT OF JIM LARKIN, GLOBAL STRATEGY ADVISORS

    Mr. Larkin. My name is Jim Larkin. I run my own consulting 
company, Global Strategy Advisors, I am a retired vice chairman 
of American Express and I am a former Marine Corps officer, 
with a great deal of experience in the Middle East and the 
Persian Gulf.
    Mr. Shays. Little closer to the mic, just bring that mic 
closer. Thank you.
    Mr. Larkin. Thank you. Mr. Chairman, this morning I heard 
the word communicate and communications probably 1,000 times. 
Permit me to make some observations if I might. It is gospel or 
classic today in conventional war, guerilla war and the war on 
terror to disrupt or destroy the adversary's ability to 
coordinate response. I point out that even bin Laden at this 
particular juncture has been reduced to camels.
    It cannot be ruled out that a sophisticated terror attack 
in the United States or in Stamford in the future will include 
multiple targets including the disruption or the destruction of 
local communications. And by the way, if I were doing it, that 
is exactly what I would do.
    While it was not part of the September 11 episode in New 
York, the NYPD in New York, because its headquarter's proximity 
to the World Trade Center tower, lost communications, had no 
backup and had to depend several hours later on hastily 
installed landlines installed by Verizon. And of course, New 
York's EOC went down with the buildings.
    What I believe needs to be addressed urgently in Stamford, 
in the State, in the region, is what happens if an EOC or its 
communications are taken down at the same time as another 
episode. What happens if a communication system is taken down 
individually in a terror attack.
    I heard Mayor Malloy this morning, who by the way has run 
an excellent operation here, I heard him say when somebody said 
to him how will you be in touch with your people, he said well, 
everyone has a cell phone today.
    What if the towers are destroyed or the electric grid makes 
them inoperable as happened exactly 4 weeks ago for 
approximately 8 to 10 hours here in the east?
    With the proper device, I could take down the Greenwich 
unguarded emergency communication system in 10 minutes. By the 
way, it does not exist on top of the police station. Some will 
say we always have backup systems. There are no backup systems 
except a couple operated by the Federal Government that can be 
taken down also.
    Therefore, should not coordination with public utilities 
come into the mix of your discussions? There has to be 
compatibility of systems, there is not compatibility of systems 
even in Fairfield County, not to speak of the State. There are 
dead areas in the State of Connecticut.
    What do we do in the event of a communications overload? In 
1993 and at September 11, and I was present for both of them, 
it was impossible for citizens to communicate with the New York 
Police Department or the Fire Department in New York for hours. 
I heard two hopeful words introduced into today's hearings--one 
was interoperable communications, as it related to the State I 
think. And I heard another word from the private sector called 
same protocols are important. I recommend that this be 
introduced also.
    Two final comments, Mr. Chairman. The people, not just the 
emergency responders, need to be reassured that both the 
response and prevention are being carefully planned and 
executed. The word carefully planned and executed is very 
important. People must be reassured. While there are some fine 
people in the State of Connecticut Homeland Security, the 
people need to be reassured. They are not being reassured. We 
have an excellent man from Homeland Security here, if not two, 
but papers report he is overworked. I can understand that.
    And finally, Mr. Chairman, with your permission, there is 
an absence of county government in Fairfield County. The 
nearest thing we have to county government, Mr. Chairman, is 
yourself. You cover the county.
    The terrorist attack war gaming and response at the Naval 
War College in Newport, RI, is run at the war facility down 
there. I am a trustee of that organization and treasurer of the 
foundation. We have war games, not the response war game that 
we saw today, but the actual attack itself and the response. 
And had the New York Fire Department twice. We have done the 
New York Police Department twice, and the reason we did it a 
second time is because Commissioner Kelly and General LaBoudy 
said we have got to do this once more, and that went for 3 
days. We have done it with the entire State of Rhode Island and 
I suggest to you that we could do that for Fairfield County, if 
not the State of Connecticut. There seems to be resistance in 
the State of Connecticut. There is no reason also--and I am 
sorry that Congressman Maloney is not here--there is no reason 
why we cannot do the same for Fairfield County and Westchester 
County together at the Naval War College. We are not 
constrained by regions.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much, Colonel.

   STATEMENT OF DAVID HAWRELUK, ADVISOR-DIRECTOR, DARIEN EMS

    Mr. Hawreluk. David Hawreluk, Advisor-Director, Darien EMS.
    Mr. Shays. Welcome.
    Mr. Hawreluk. Thank you. Thank you for coming.
    Mr. Shays. Pull the mic, if you would, a little closer.
    Mr. Hawreluk. Most of the major concerns that I have been 
thinking about have already been brought up, but some of the 
minor ones that I think we could address a little bit more with 
some money toward it is the public awareness ahead of the 
incident and post-after. Standards of actions, expectations 
that people get immediate information. We should prepare them 
that they are not going to be getting things like that. 
Expectations like opening up the emergency lanes for traffic 
control at rush hour sets expectations of putting us in 
gridlock long before there is a problem. So looking at things 
like that would probably help us in the long term deal with 
issues that could arise after the fact where people want all 
this information right away. And I do not think that is being 
addressed. It is kind of a minor problem behind the scenes, but 
we need to work on it before an incident happens.
    Mr. Shays. Thank you. Thank you for being here, by the way, 
too.

   STATEMENT OF JOHN CONTE, CAPTAIN, STAMFORD FIRE DEPARTMENT

    Captain Conte. Yes, I am John Conte, I am a captain with 
the Stamford Fire Department, I am one of the city's hazmat 
officers.
    A couple of things I would like to say. No. 1, from the 
emergency response side, it is just ordinary people in 
extraordinary circumstances. We have talked a lot today about 
incident command system. The incident command system works 
because it is used at basic incidents and it gets extrapolated 
out to major incidents.
    With that in mind, there has been some discussion about 
standards, you were talking about earlier, Congressman Turner, 
and I think Congresswoman Maloney was also speaking about that. 
The ICS system works because it is extrapolated out, our 
standard system uses airpacks and our airpacks are presently 
not set up for standards of NIOSH, which comes out before CBRNE 
systems. In order for us to retrofit to that type of system, 
they would cost roughly $400 apiece, you are looking at 
$100,000 for our size city. If you looked at a regional type 
basis, you are talking about millions of dollars in order to 
extrapolate out. This is equipment the fire department people 
use on a daily basis, again it would be extrapolating existing 
equipment to extraordinary circumstances.
    If you run out the numbers even further, looking at the 
World Trade Center, for example, you would wean off of an SCBA 
system to a filtration system. Presently, fire departments are 
not set up to switch down to a filtration type system where you 
could use those for a longer period of time. That is an area 
which needs to be addressed from a stockpiling system and how 
the individual departments would have access to that.
    Getting down to metering equipment, a lot of metering 
equipment has come down to the basic local level. One of the 
problems that we have seen is that the upgrade, the 
calibration, the necessary replacements that occur 3, 5 years 
down the line is not in place for it. So you might have a meter 
now, 3 years from now the battery or the sensor goes out, there 
is really no system in place to get the replacements for it.
    The last thing I would like to say, and this sort of like 
brings around full cycle, is that FEMA has some excellent 
training programs out there. I have had the ability to go out 
and take some of these programs. For example, there are several 
excellent radiological programs. The problem is that their 
funding has been in jeopardy for the past couple of years and 
those programs are the ones that our ancillary people are going 
to be the ones taking, people coming down from the State, 
people coming from the Federal Government are going to be 
trained to that level, not necessarily trained on terrorist 
prevention type things, but these are courses that are used by 
people day in and day out, they are necessary skills that get 
brought out on a daily basis. And again, they would be 
extrapolated out into an extraordinary circumstance.
    So I would echo what Chief McGrath was talking about 
earlier, the funding is needed in various areas, but it is just 
not making its way into what is needed.
    Mr. Shays. Thank you very much.

STATEMENT OF E. MICHAEL LATESSA, EMS DIRECTOR, CITY OF NORWALK, 
                               CT

    Mr. Latessa. Thank you, Mr. Chairman. My name is Michael 
Latessa. I am the Emergency Management Director for the city of 
Norwalk, also the Emergency Communications Director.
    I would like to briefly speak on two continuous themes that 
I have heard over the 30 years of my public safety career, and 
that is communications and training.
    In the first aspect of communications, we have heard this 
term interoperability kicked around all day and assuming 
tomorrow we were flushed with money to solve that problem, we 
desperately need Congress to motivate the Federal 
Communications Commission to work diligently with respect to 
spectrum allocation for public safety services. From what I 
understand, especially in this region of Connecticut, it is 
almost impossible to get a license for 800 megahertz channels, 
short of what you already have allocated, for a variety of 
reasons which I do not quite understand yet, because I am very 
new to the area. But I would encourage Congress to pursue that.
    Mr. Shays. I am going to ask a really dumb question but it 
will help me understand the problem.
    I see limousine services, they have their cell phone and 
then they have their walkie talkies and so on. They do not seem 
to have any trouble. Why do they not have trouble? They seem to 
be able to get what they need when they need it. What is 
happening there?
    Mr. Latessa. Sir, I am not sure I know the answer to that 
question, but what I do know is that it is very difficult for a 
public safety agency to make application and receive additional 
spectrum allocation in just about any spectrum that you choose, 
whether it is high band, ultra high or 800-900 spectrum radio 
systems.
    Mr. Shays. I am just going to have my staff respond.
    Mr. Halloran. One of the issues is that State and local 
governments compete with every phone company and every other 
commercial operator in the world----
    Mr. Latessa. That is right.
    Mr. Halloran [continuing]. In front of the FCC for access 
to spectrum. The Federal NTIA handles Federal user needs and 
DOD and other Federal users have a chunks of spectrum they can 
use, but you folks compete with Motorola and everybody else for 
what you are going to get out of the spectrum.
    Mr. Latessa. And that is what I understand, you know, that 
most spectrum allocation is being eaten up by commercial, 
cellular phone operators.
    Mr. Shays. I hear you. And this clearly is a problem.
    Mr. Latessa. But that is really key. Even if we were 
flushed with money, we would still have difficulty solving the 
problem.
    The second is to encourage again Congress for the continual 
financial and political support for the National Emergency 
Training Center in Emmitsburg, MD. This is really a key 
training facility for the emergency responder community 
throughout the United States. For example, the----
    Mr. Shays. Should there be a few of them located in 
different places or does it make sense just to have one?
    Mr. Latessa. Well, that is an often debated subject. I 
think currently because of the way that the National 
Emergency--where it is at, it is a tremendous facility and it 
is publicly supported with respect that if you live in 
California, your stipend for travel, your expenses are paid for 
to bring you to Emmitsburg, MD to where you can basically 
network with emergency responders from throughout the Nation. 
So that is beneficial.
    Mr. Shays. Is there anyone else who has utilized that 
facility or can speak to it? OK.
    Mr. Latessa. I think most of us that have been in this 
business for any length of time have either been there--
personally, I am an adjunct instructor there and have seen the 
benefits over the years of, you know, this facility.
    But I want to focus on one particular program, and that is 
the integrated incident command system program that they have 
there, which is a 4-day course which basically sees what you 
saw today in a 4 or 5 hour period of time stretched out over a 
4-day period of time. It allows whole communities to bring 
their key first responder staff to the facility and they do a 
scenario, based on your location, and it is not just some 
canned scenario. But integrate all of the elements that we were 
referring to, what if this happens and what if this happens and 
what if this happens. Because it is over a 4-day period, you 
can do a lot more of that kind of think tanking and, you know, 
throwing a few curve balls into the emergency responders. And 
it involves the community, the business community, the first 
responder community and political community. They actually go 
down there and participate in this 3 or 4-day program. I 
encourage your continued support of that institution.
    Mr. Shays. Thank you very much.
    Is there anyone who has not been invited to speak or has 
been invited and chosen not to, but just really feels we need 
to put something in the record, or can we adjourn?
    [No response.]
    Mr. Shays. Is that OK? Any other comments from the 
gentlemen here?
    [No response.]
    Mr. Shays. With that, I thank my colleague, Mr. Turner, for 
spending his day in Stamford instead of Ohio with his family 
and I thank all of you for your participation. I thank the 
recorder for his good work and the staff from our committee, 
the National Security Subcommittee. Job well done.
    Thank you all very much.
    [Whereupon, at 3:15 p.m., the subcommittee was adjourned.]


</pre></body></html>
